FILED: June 24,2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No, 19-2398
(4:19-CV-02050-RBH)
i>

CLARA LEWIS BROCKINGTON,
Plaintiff - Appellant,
v.
SALEM UNITED METHODIST CHURCH; THE UNITED METHODIST
CHURCH SOUTH CAROLINA CONFERENCE; COUNCIL OF BISHOPS; REV.
BRYAN MUNGO, Pastor; BISHOP L. JONATHAN HOLSTON; REV. TERRY
FLEMING; KENNETH CARTER, JR.; CYNTHIA FIERRO HARVERY, Council
of Bishops; BRUCE R. OUGH, Council of Bishops; DORETHIA BAILEY;
JANICE ALEXANDER HOWARD; MAXINE MCCLAINE,
Defendants - Appellees.

ORDER
.Clara Lewis Brockington has filed a motion for reconsideration of the order denying J
as untimely her petition for panel rehearing. Uppn reconsideration, the court grants the j
fmotion. See 4th Cir. R. 40(c)(i).
Having reviewed the petition, however, the court denies the petition for rehearing
because the court did not err in citing to Fed. R. App. P. 41(a) in its mandate. See Fed. R.
App. P. 41(a) (“Unless the court directs that a formal mandate issue, the mandate consists

j

V

'■V

0£0£

„ V'"!*

snul :G?iJn
8JA311A K> 'Ift}(Y) PTfAT* UJ'U'/ ]
'! fjord ht>i io'i rmr hoi

ms-vj .us.
01H.*MW010-Y3-P1:;.>
.’/orOVtmOJM 8IV/3J AR/.D
JmJbqaA - TibnbFi
,v

tBIGOlIT3.M CJ3TJKU HHT :H3HUH0 TgKlOimiM Ci-ilT/U MHJA8
73if #<K>H?.ia ao jyy/voo ;aonajrdmn ahuoraj uiuo?jjomw)
YM3T J/3R ;K0V8,10U XAHTAKOi .J 1011818 notas 1 ,00/tUM WAYiTfl

IbnuoO ,YflaVRAH OMHH AIHTKYO ;.Ri JIHim'J HT3VW32T ;QKl!/i3JH

:Y3JIAtf AimjROQ :eqod?!S'io Ibnuo') tHOUO .ft HXtf18 ;?.qodd8 k>
.3>flAJOOM 3VT1XAW ;OJiAWO! 1 >I30’/AXa U 30MH
.yjOli'jqnA - fjfmbrbbvi

ft 3 Cl ft O

gai^nobiabTO 'xfFlo fioitfnsbtewwj lol-riobom a

>n.i nofsjr.ijfoou1! ai//9j fnai'.j

3f|} <»n/n« tmoo DfU .noiiET50r;:i!o')m nnqU .gohuyffe-i amq ioI nohitaq tari /ivrniinu gg
.(i)^0)O-R 1 ,'jiO dib

.noiiom

gtruit’fto'* lbl noiiiioq oril <23in$>b Jiuoo sriJ' ^svt.y/ori .noilitsq sdj bo-zreiVsTC gnivtH
ft bs-i stifc .yJubnem ?!i ni (fi)Jb .1 .qqA .ft. .has oi gnilb ni to /on bib Jijjgd sdi szjjgood
2]?ieinf>'j 5}f,bnorn yrfi .ot/zb ^jsbnBffi lermol g jgrfj mviih Ivju-j srfl azylntP') (g)tb .1 .qqA

J

v-f . *

of a certified copy of the judgment, a copy of the court’s opinion, if any, and any direction
about costs.”). The court denies Brockington’s motion for an additional extension of time.
Entered at the direction of the panel: Judge Niemeyer, Judge Agee, and Senior
Judge Shedd.
For the Court
/s/ Patricia S. Connor. Clerk

*.

2

4:19-cv-02050-RBH-TER

Date Filed 10/18/19

Entry Number 24

Page 1 of 2

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
) C/A No. 4:19-2050-RBH-TER

Clara Lewis Brockington,
Plaintiff,

)
)

vs.

)

Salem United Methodist Church,
The United Methodist Church South Carolina
Conference,
Council of Bishops,
Rev. Bryan Mungo, Pastor
Bishop L. Jonathan Holson,
Rev. Terry Fleming,
Kenneth Carter, Jr.,
Cynthia Fierro Harvey, Council ofBishops,
Bruce R. Ough, Council ofBishops,
Dorethia Bailey,
Janice Alexander Howard,
Maxine McClaine,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

This is a civil action filed by a pro se litigant. Under Local Civil Rule 73.02(B)(2) of the
United States District Court for the District Court of South Carolina, pretrial proceedings in this
action have been referred to the assigned United States Magistrate Judge. By order dated August 19,
2016, Plaintiff was given a specific time frame in which to bring this case into proper form. Plaintiff
has substantially complied with the court’s orders, and this case is now in proper form.
PAYMENT OF THE FILING FEE:
Plaintiffs Motion for Leave to Proceed in forma pauperis was granted by order of this court
on July 25, 2019. (ECF No. 7).
TO THE CLERK OF COURT:
The above-captioned case is subject to summary dismissal. Hence, the Office of the Clerk
of Court is directed not to issue any summons at this time in the above-captioned case, unless
instructed by a United States District Judge or a Senior United States District Judge to do so.
TO PLAINTIFF:
Plaintiff must place the civil action number (C/A No.4:16-1758) listed above on any
document provided to the Court provided in connection with this case. Any future filings must be

4

4:19-cv-02050-RBH-TER

Date Filed 10/18/19

Entry Number 24

Page 2 of 2

sent to the address below. All documents requiring Plaintiffs signature shall be signed with
Plaintiff s full legal name written in Plaintiffs own handwriting. Pro se litigants, such as Plaintiff,
shall not use the “s/typed name” format used in the Electronic Case Filing System. In all future
filings with this Court, Plaintiff is directed to use letter-sized (814 inches by 11 inches) paper only,
to write or type text on one side of a sheet of paper only and not to write or type on both sides of any
sheet of paper. Plaintiff is further instructed not to write to the edge of the paper, but to maintain
one-inch margins on the top, bottom, and sides of each paper submitted.
Plaintiff is a pro se litigant. Plaintiffs attention is directed to the following important notice:
You are ordered to always keep the Clerk of Court advised in writing (Post Office
Box 2316, Florence, South Carolina 29503) if your address changes forany reason,
so as to assure that orders or other matters that specify deadlines for you to meet will
be received by you. If as a result of your failure to comply with this Order, you fail
to meet a deadline set by this Court, your case may be dismissed for violating this
Order. Therefore, if you have a change of address before this case is ended, you must
comply with this Order by immediately advising the Clerk of Court in writing of such
change of address and providing the Court with the docket numbers of all pending
cases you have filed with this Court. Your failure to do so will not be excused by the
Court.

IT IS SO ORDERED.

s/ Thomas E. Rogers, IH
Thomas E. Rogers, IH
United States Magistrate Judge

October 18, 2019
Florence, South Carolina

2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2398

CLARA LEWIS BROCKINGTON,
Plaintiff - Appellant*
v.
V

SALEM UNITED METHODIST CHURCH; THE UNITED METHODIST
CHURCH SOUTH CAROLINA CONFERENCE; COUNCIL OF BISHOPS; REV.
BRYAN MUNGO, Pastor; BISHOP L. JONATHAN HOLSTON; REV. TERRY
FLEMING; KENNETH CARTER, JR; CYNTHIA FIERRO HARVERY, Council
of Bishops; BRUCE R. OUGH, Council of Bishops; DORETHIA BAILEY;
JANICE ALEXANDER HOWARD; MAXINE MCCLAINE,

*

Defendants - Appellees.

Appeal from the United States District Court for the District of South Carolina, at Florence.
R. Bryan Harwell, Chief District Judge. (4:19-cv-02050-RBH)

Submitted: March 10,2020

Decided: March 12,2020

Before NIEMEYER and AGEE, Circuit Judges, and SHEDD, Senior Circuit Judge.

Affirmed by unpublished per curiam opinion.
Clara Lewis Brockington, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

r
tT :

te­

PER CURIAM:

st

Clara Lewis Brockington appeals the district court’s order accepting the
recommendation of the magistrate judge and dismissing without prejudice her amended
complaint for lack of subject matter jurisdiction. We have reviewed the record and find no
reversible error. Accordingly, we affirm for the reasons stated by the district court.
Brockington v. Salem United Methodist Church, No. 4:19-cv-02050-RBH (D.S.C. Nov. 5,
2019). We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
4-

decisional process.

AFFIRMED

2

;*'\L ,

• FILED: March 12, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2398
(4:19-cv-02050-RBH)
CLARA LEWIS BROCKINGTON
Plaintiff - Appellant
v.
SALEM UNITED METHODIST CHURCH; THE UNITED METHODIST
CHURCH SOUTH CAROLINA CONFERENCE; COUNCIL OF BISHOPS;
REV. BRYAN MUNGO, Pastor; BISHOP L. JONATHAN HOLSTON; REV.
TERRY FLEMING; KENNETH CARTER, JR.; CYNTHIA FIERRO
HARVERY, Council of Bishops; BRUCE R. OUGH, Council of Bishops;
DORETHIA BAILEY; JANICE ALEXANDER HOWARD; MAXINE
MCCLAINE
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR, CLERK

‘4'

;

:

,*

X
♦i

.i/jr; sr; v:u*;.

> •: ;

‘ \

f

•> *;.• •>/

• C
i '■

’

V

*■'. V.f c; :v.£irT-;

i'3

,ri:

4

:>
■ i

*"

;

/ r\

*

r .

fV

Ai> .-..i

<xmE

i

? M.

i

•i

. i

(

?.‘7V

Y2SVa Y' D^y-Q
*

“

*

‘

'

SI

\..-

J
>■! f

•<

V •

X

l

l

\

r.s

\

#•
l

;
y d.

*

•■

;

*

■:

;

•;

t

<

:'S

A

nr,

i
y>

V.,

:

.1

.f.r
t, ■
’ t

s

r.

i-

»

(

V

:

■

!

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page lot 8

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
) C/A No. 4:19-2050-RBH-TER

Clara Lewis Brockington,
Plaintiff,
vs.
Salem United Methodist Church,
The United Methodist Church South Carolina
Conference,
Council of Bishops,
Rev. Bryan Mungo, Pastor
Bishop L. Jonathan Holson,
Rev. Terry Fleming,
Kenneth Carter, Jr.,
Cynthia Fierro Harvey, Council ofBishops,
Bruce R. Ough, Council ofBishops,
Dorethia Bailey,
Janice Alexander Howard,
Maxine McClaine,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Report and Recommendation

This is a civil action filed by a pro se litigant, proceeding in forma pauperis. Pursuant to 28
U.S.C. § 636(b)(1), and District of South Carolina Local Civil Rule 73.02(B)(2)(e), the undersigned
is authorized to review all pretrial matters in such pro se cases and to submit findings and
recommendations to the district court.
STANDARD OF REVIEW
Under established local procedure in this judicial district, a careful review has been made of
Plaintiffs pro se complaint filed in this case. This court is required to liberally construe pro se
complaints. Erickson v. Pardus, 551 U.S. 89, 94 (2007). Such pro se complaints are held to a less
stringent standard than those drafted by attorneys. Id.; Gordon v. Leeke, 574 F.2d 1147, 1151 (4th
Cir. 1978). Even under this less stringent standard, however, the pro se complaint is subject to

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 2 of 8

summary dismissal. The mandated liberal construction afforded to pro se pleadings means that if
the court can reasonably read the pleadings to state a valid claim on which plaintiff could prevail,
it should do so, but a district court may not rewrite a complaint to include claims that were never
presented, construct the plaintiffs legal arguments for her, or conjure up questions never squarely
presented to the court. Beaudett v. City ofHampton, 775 F.2d 1274, 1278 (4th Cir. 1985); Small v.
Endicott, 998 F.2d 411 (7th Cir. 1993); Barnett v. Hargett, 174 F.3d 1128 (10th Cir. 1999). The
requirement of liberal construction does not mean that the court can ignore a clear failure in the
pleading to allege facts which set forth a claim currently cognizable in a federal district court. Weller
v. Dep’t ofSoc. Servs., 901 F.2d 387, 390-91 (4th Cir.1990) (The “special judicial solicitude” with
which a [court] should view such pro se complaints does not transform the court into an advocate.).
DISCUSSION
Cognizant of Goode v. Cent. Va. Legal Aid Soc ’y, Inc., 807 F.3d 619,623 (4th Cir. 2015) and
its progeny, the court informed Plaintiff regarding the deficiencies in her original Complaint and
Plaintiff was given notice and opportunity to amend her Complaint. (ECF No. 7). Plaintiff availed
herself of such opportunity and filed an Amended Complaint; however, the deficiencies persist and
this action is subject to summary dismissal for lack of subject matter jurisdiction.
Plaintiff sues Salem United Methodist Church and several persons affiliated with the church
and leadership hierarchy of the Methodist Church generally. Plaintiff alleges she has been a long­
standing member of Salem United Methodist Church. (ECF No. 23 at 13). Plaintiff alleges in 2018,
Plaintiff completed her portion of the application for Golden Cross Medical Assistance, which
needed her pastor’s recommendation. (ECF No. 23 at 13). Plaintiffs pastor refused to provide a
recommendation and Plaintiff alleges the pastor retaliated when the Bishop was notified. (ECF No.

2

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 3 of 8

23 at 13)(it is unclear if the “retaliation” alleged is related to the application or to Plaintiffs
membership in the church). Plaintiff alleges “a form of slander, libel, and defamation of character”
was performed against her. (ECF No. 23 at 13). “I have been discriminated against by Defendants
due to my age, color, gender, disability, etc.” (ECF No. 23 at 13). Plaintiff alleges statements,
letters, and meetings by church members and hierarchy have harmed her reputation and attacked her
Christian faith. (ECF No. 23 at 14). Plaintiff alleges as damages she is suffering from “slander, libel,
defamation of character, retaliation, mental anguish, harassment, stress, depression, emotional
imbalance, anxiety, fear, embarrassment, loss of place to worship, loss of leadership, punitive
damages, etc.” (ECF No. 23 at 14). Plaintiff alleges she is embarrassed to leave her home and has
nightmares. (ECF No. 23 at 15). Plaintiff alleges there are numerous witnesses that will testify as
to baptism policies. (ECF No. 23 at 15). It appears Plaintiff is contesting her termination in church
membership from the Methodist Church due to immersion baptism in a Baptist church. (ECF No.
23 at 15).

Plaintiff further contests her pastor’s qualifications. (ECF No. 23 at 15). “Due to the

negligence of all of these defendants for hiring a first time, uneducated, disqualified [pastor],
inexperienced to a large congregation and fearing knowledge of long time members with Christian
skills and numerous degrees, I am requesting that this case remain in federal court to rule on the
substantial evidence in the case that comes under federal court subject matter jurisdiction.” (ECF
No. 23 at 16). Plaintiff requests monetary damages and that all defendants resign immediately from
all United Methodist Church affiliations.

(ECF No. 23 at 17). “Defendants have violated my

constitutional rights on numerous occasions according to my state of being.” (ECF No. 23 at 17).
Federal courts are courts of limited subject matter jurisdiction, “constrained to exercise only
the authority conferred by Article III of the Constitution and affirmatively granted by federal statute.”
3

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 4 of 8

In re Bulldog Trucking, Inc., 147 F.3d 347,352 (4th Cir. 1998). Because federal courts have limited
subject matter jurisdiction, there is no presumption that the court has jurisdiction. Pinkley, Inc. v.
City ofFrederick, 191 F.3d394, 399 (4th Cir. 1999), citing Lehigh Mining & Mfg. Co. v. Kelly, 160
U.S. 337, 327 (1895). Federal courts have an “independent obligation” to investigate the limits of
its subject-matter jurisdiction. Arbaugh v. Y & H Corp., 546 U.S. 500, 514 (2006). As such, a
federal court is required, sua sponte, to determine if a valid basis for its jurisdiction exists, “and to
dismiss the action if no such ground appears.” Bulldog Trucking, 147 F.3d at 352; see also Fed. R.
Civ. P. 12(h)(3).
District courts exercise two types of subject matter jurisdiction: federal question jurisdiction
pursuant to 28 U.S.C. § 1331 and diversity jurisdiction pursuant to 28 U.S.C. § 1332. The diversity
statute requires complete diversity of parties and an amount in controversy in excess of seventy-five
thousand dollars ($75,000.00). 28 U.S.C. § 1332(a). Complete diversity of parties in a case means
that no party on one side may be a citizen of the same State as any party on the other side. See Owen
Equipment & Erection Co. v. Kroger, 437 U.S. 365, 372-374 (1978). This Court has no diversity
jurisdiction over this case because Plaintiff has a South Carolina address and a defendant also has
a South Carolina addresses. Thus, no subject matter jurisdiction exists based upon diversity
jurisdiction under § 1332. Plaintiff is maybe able to pursue any state law tort claims alleged against
defendants in state court, but such claims cannot form the basis for subject matter jurisdiction in this
court based on Plaintiffs Amended Complaint.
A plaintiff must allege in her pleading the facts essential to show jurisdiction. McNutt v.
General Motors Acceptance Corp., 298 U.S. 178, 182 (1936). To this end, Federal Rule of Civil
Procedure 8(a)(1) requires that the complaint provide “a short and plain statement of the grounds for

4

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 5 of 8

the court’s jurisdiction.” If, however, the complaint does not contain “an affirmative pleading of a
jurisdictional basis, the federal court may find that it has jurisdiction if the facts supporting
jurisdiction have been clearly pleaded.” Pinkley, Inc., 191 F.3d at 399 (citing 2 Moore’s Federal
Practice^ 8.03[3] (3ded.l997). Plaintiffhas not pleaded what jurisdictional basis supports her filing
in federal court. Plaintiff does not cite what federal cause of action she is pursuing or what
constitutional amendment has been violated. Plaintiff does not name any state actors or pleaded that
Defendants are state actors. To the extent Plaintiff is attempting to allege any claim under § 1983,
no viable federal claim is stated against any of the defendants as they are non-state actors. West v.
Atkins, 487 U.S. 42, 48 (1988).
The only other possible basis for subject matter jurisdiction that the court can liberally
construe from Plaintiffs allegations is a § 1981 action. See Weller v. Dep ’t ofSoc. Servs., 901 F.2d
387,390-91 (4th Cir. 1990) (The “special judicial solicitude” with which a [court] should view such
pro se complaints does not transform the court into an advocate.). To the extent Plaintiff intended
to state such a § 1981 claim to support federal question jurisdiction, Plaintiff fails to sufficiently
allege basic facts that could support such a claim, and thus jurisdiction. “The two major elements
of a successful § 1981 claim follow from the statute’s language. First, the plaintiff must possess
some contractual right that the defendant blocked or impaired.... Second, the plaintiff has to
demonstrate that racial discrimination drove the decision to interfere with these contractual rights.”
Williams v. Richland Cnty. Children Servs., No. 11-4205,489 Fed. Appx. 848, 851 (6th Cir. 2012)
(citing Domino's Pizza, Inc. v. McDonald, 546 U.S. 470,476 (2006)). Plaintiffhas not alleged what
contractual right Plaintiff has to support a prima facie § 1981 claim. Plaintiffs conclusory
allegations that the defendants discriminated against her based on her “age, color, gender, disability,

5

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 6 of 8

etc.” are also insufficient to establish the necessary discriminatory animus under §1981. See Morales
v. City of New York, 752 F.3d. 234, 238 (2d Cir. 2014) (dismissing a Section 1981 claim where
plaintiff failed to allege examples of purposeful discrimination).
As request for relief, Plaintiff requests monetary damages and that defendants “resign
effective immediately from all [their] United Methodist affiliations.” (ECF No. ? at 17). Civil courts
are restricted when they consider issues pertaining to religious organizations or doctrines. Jones v.
Wolf 443 U.S. 595,602 (1979) (citations omitted). “Generally, courts may not interpret church laws,
policies or practices in a manner that will limit the churches [sic] ability to fully practice its religion
or be guided by its religious principles.” JC2 v. Grammond, 232 F. Supp. 2d 1166, 1168 (D. Or.
2002) (citing Cantwell v. Connecticut, 310 U.S. 296, 303 (1940)); see also Md. & Va. Eldership of
Churches ofGod v. Church ofGod at Sharpsburg, Inc., 396 U.S. 367, 369 (1970) (per curiam). The
First Amendment allows civil courts to adjudicate disputes within religious organizations, so long
as resolution refrains from determining matters of ecclesiastical doctrine or polity. Jones, 443 U.S.
at 610; see also Serbian E. Orthodox Diocese for the United States & Canada v. Milivoievich, 426
U.S. 696, 710 (1976); Pearson v. Church of God, 478 S.E.2d 849, 851 (S.C. 1996) (“where
resolution of the [religious] disputes cannot be made without extensive inquiry by civil courts into
religious law and polity, the First and Fourteenth Amendments mandate that civil courts shall not
disturb the decisions of the highest ecclesiastical tribunal within a church of hierarchical polity...”)

1 Even if Plaintiff attempts to allege such protected class with specificity on objections,
Plaintiff still has not alleged a contractual right to support a prima facie § 1981 claim. Moreover,
objections containing new factual allegations are not proper. See generally Cleveland v. Duvall,
No. 8:14-cv-04305-RBH, 2015 WL 6549287, at *2 (D.S.C. Oct. 28, 2015) (explaining “new
factual allegations are not properly considered in the context of an objection to an R & R”), affd,
647 Fed. Appx, 156 (4th Cir. 2016).
6

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 7 of 8

(quoting Milivoievich, 426 U.S. at 709). Plaintiff, in part, also contests baptism policies and the
education/qualifications of her pastor. Such matters would involve determining matters of
ecclesiastical doctrine or polity or be so intertwined with other issues as to be considered
ecclesiastical, and this court is prohibited from interpreting such matters of ecclesiastical doctrine.2
RECOMMENDATION
It is recommended that the District Court dismiss the Complaint in this case without
prejudice and without issuance and service ofprocess?
s/Thomas E. Rogers, IQ
Thomas E. Rogers, m
United States Magistrate Judge

October 18, 2019
Florence, South Carolina

Plaintiff’s attention is directed to the important notice on the next page.

2 Ecclesiastical entanglement has long been treated as a jurisdictional question. Gregorio
v. Hoover, 238 F. Supp. 3d 37, 46 (D.D.C. 2017).
3 See Platts v. O’Brien, 691 Fed. Appx. 774 (4th Cir. June 22, 2017) (citingS. Walk at
Broadlands Homeowner’s Ass’n v. OpenBand at Broadlands, LLC, 713 F.3d 175, 185 (4th Cir.
2013) (“A dismissal for ... [a] defect in subject matter jurisdiction[ ] must be one without
prejudice, because a court that lacks jurisdiction has no power to adjudicate and dispose of a
claim on the merits.”)..

7

4:19-cv-02050-RBH

Date Filed 10/18/19

Entry Number 25

Page 8 of 8

Notice of Right to File Objections to Report and Recommendation
The parties are advised that they may file specific written objections to this Report and
Recommendation with the District Judge. Objections must specifically identify the portions of the
Report and Recommendation to which objections are made and the basis for such objections. “[I]n
the absence of a timely filed objection, a district court need not conduct a de novo review, but instead
must ‘only satisfy itself that there is no clear error on the face of the record in order to accept the
recommendation.’” Diamondv. Colonial Life&Acc. Ins. Co., 416F.3d310(4thCir. 2005) (quoting
Fed. R. Civ. P. 72 advisory committee’s note).
Specific written objections must be filed within fourteen (14) days of the date of service of
this Report and Recommendation. 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b); see Fed. R. Civ.
P. 6(a), (d). Filing by mail pursuant to Federal Rule of Civil Procedure 5 may be accomplished by
mailing objections to:
Robin L. Blume, Clerk
United States District Court
Post Office Box 2317
Florence, South Carolina 29503
Failure to timely file specific written objections to this Report and Recommendation
will result in waiver of the right to appeal from a judgment of the District Court based upon
such Recommendation. 28 U.S.C. § 636(b)(1); Thomas v. Am, 474 U.S. 140 (1985); Wright v.
Collins, 766 F.2d 841 (4th Cir. 1985); United States v. Schronce, 727 F.2d 91 (4th Cir. 1984).

8

4:19-cv-02050-RBH

Date Filed 11/05/19

Entry Number 27

Page lot 2

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
FLORENCE DIVISION
Clara Lewis Brockington,
Plaintiff,
v.
Salem United Methodist Church, et al,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action No.: 4:19-cv-02050-RBH

ORDER

This matter is before the Court for review of the Report and Recommendation (“R & R”) of
United States Magistrate Judge Thomas E. Rogers, Id, who recommends summarily dismissing this
action without prejudice for lack of subject matter jurisdiction.1 See ECF No. 25.
The Magistrate Judge makes only a recommendation to this Court. The recommendation has
no presumptive weight, and the responsibility to make a final determination remains with this Court.
See Mathews v. Weber, 423 U.S. 261, 270-71 (1976). The Court is charged with making a de novo
determination of those portions of the R & R to which specific objection is made, and the Court may
accept, reject, or modify, in whole or in part, the recommendation of the Magistrate Judge or recommit
the matter with instructions. See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b).
Plaintiff has not filed objections to the R & R, and the time for doing so has expired.2 In the
absence of objections to the R & R, the Court is not required to give any explanation for adopting the

1
The Magistrate Judge issued the R & R in accordance with 28 U.S.C. § 636(b) and Local Civil Rule
73.02(B)(2) (D.S.C.). The Court is mindful of its duty to liberally construe the pleadings of pro se litigants such as
Plaintiff. See Gordon v. Leeke, 574 F.2d 1147,1151 (4th Cir. 1978). But see Beaudett v. City ofHampton, 775 F.2d
1274, 1278 (4th Cir. 1985) (“Principles requiring generous construction of pro se complaints are not, however,
without limits. Gordon directs district courts to construe pro se complaints liberally. It does not require those courts
to conjure up questions never squarely presented to them.”).
Plaintiffs objections were due by November 4, 2019. See ECF Nos. 25 & 26.

4:19-cv-02050-RBH

Date Filed 11/05/19

Entry Number 27

Page 2 of 2

Magistrate Judge’s recommendations. See Camby v. Davis, 718 F.2d 198, 199-200 (4th Cir. 1983).
The Court reviews only for clear error in the absence of an objection. See Diamond v. Colonial Life &
Acc. Ins. Co. ,416 F.3d 310,315 (4th Cir. 2005) (stating that “in the absence of a timely filed objection,
a district court need not conduct de novo review, but instead must ‘only satisfy itself that there is no
clear error on the face of the record in order to accept the recommendation’” (quoting Fed. R. Civ. P.
72 advisory committee’s note)).
After a thorough review of the record in this case, the Court finds no clear error and therefore
adopts the Magistrate Judge’s R & R [ECF No. 25]. Accordingly, the Court DISMISSES this action
without prejudice and without issuance and service of process.3
IT IS SO ORDERED.

Florence, South Carolina
November 5, 2019

s/ R. Bryan Harwell
R. Bryan Harwell
ChiefUnited States District Judge

3
The Magistrate Judge provided Plaintiff an opportunity to file an amended complaint, which she did. See
ECF Nos. 13,20,22, & 23; see generally Goode v. Cent. Virginia Legal Aid Soc’y, Inc., 807F.3d619,623 (4th Cir.
2015). The Court is dismissing this action without prejudice based on lack of subject matter jurisdiction. SeeS. Walk
at Broadlands Homeowner's Ass’n, Inc. v. OpenBand at Broadlands, LLC, 713 F.3d 175, 185 (4th Cir. 2013)
(“[Djismissals for lack ofjurisdiction should be without prejudice because the court, having determined that it lacks
jurisdiction over the action, is incapable of reaching a disposition on the merits ofthe underlying claims.” (alteration
in original) (citation omitted)).

2

'CM/tCF - scd

https://ecf.scd.circ4.dcn/cgi-bin/Dispatch.pl7939484016836969

Other Everits :
4:19-cv-02050-RBH Brockington
v. Salem United Methodist
Church et al
JURY.PROSE
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 11/5/2019 at 1:25 PM EST arid filed on 11/5/2019
Brockington v. Salem United Methodist Church et al
Case Name:
4:19-cv-02050-RBH
Case Number:
Filer:
WARNING: CASE CLOSED on 11/05/2019
Document Number: 28
Docket Text:
JUDGMENT by the clerk. This case is dismissed without prejudice and without issuance
and service of process, (dsto,)
4:19-cv-02050-RBH Notice has been electronically mailed to:
4:19-cv-02050-RBH Notice will not be electronically mailed to:
Clara Lewis Brockington
Post Office Box 3232
Florence, SC 29502
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=1091130295 [Date= 11/5/2019] [FileNumber=9341425-0
] [07cfd80764271b790d5000bd3622e8363d62cdb9ad0a41f3752f869dl47157d94ff
da7bf80693cf23 d24e 103734cl4el e2a4c40dad28be6fa7541 c74e4b5 0f7b]]

1 of 1

11/5/2019, 1:25 PM

/

V• r

4:19-cv-02050-RBH

4

Date Filed 11/05/19

Entry Number 28

Page 1 of 1

AO 450 (SCD 04/2010) Judgment in a Civil Action

United States District Court
for the
District of South Carolina
Clara Lewis Brockington
Plaintiff
v.

)

Salem United Methodist Church, The United
Methodist Church South Carolina Conference,
Council of Bishops, Rev. Bryan Mungo, Bishop L.
Jonathan Holston, Rev. Terry Fleming,
Kenneth Carter, Jr., Cynthia Fierro Harvery, etal,

Civil Action No.

4:19-CV-2050-RBH

)
)
)
)

Defendant

JUDGMENT IN A CIVIL ACTION
The court has ordered that (check one):
□ the plaintiff (name)

recover from the defendant (name)

the amount of

which includes prejudgment interest at the rate of___ °/o, plus postjudgment interest at the rate of

dollars ($_),
%, along with

costs.

□ the plaintiff recover nothing, the action be dismissed on the merits, and the defendant (name)---------recover costs from the plaintiff (name)________________ .
M other: This case is dismissed without prejudice and without issuance and service of process.
This action was (check one):

□ tried by a jury, the Honorable

_______ presiding, and the jury has rendered a verdict.

□ tried by the Honorable

presiding, without a jury and the above decision was reached.

■ decided by the Honorable Chief Judge R. Bryan Harwell, United States District Judge who adopted the Report
and Recommendation of the Honorable Thomas E. Rogers, III, United States Magistrate Judge.

Date: November 5, 2019

CLERK OF COURT
s/Debbie Stokes
Signature of Clerk or Deputy Clerk

r
ClCf/EC^scd

https://ecf.scd.circ4.dcn/cgi-bin/Dispatch.pl7104121217485033

Appeal Documents
4:19-cv-02050-RBH Brockington
v, Salem United Methodist
Church et al CASE CLOSED on
11/05/2019

APPEAL,CLOSED,PROSE
U.S. District Court
District of South Carolina
Notice of Electronic Filing
The following transaction was entered on 12/5/2019 at 7:06 PM EST and filed on 12/5/2019
Brockington v. Salem United Methodist Church et al
Case Name:
4:19-CV-02050-RBH
Case Number:
Filer:
WARNING: CASE CLOSED on 11/05/2019
Document Number: 31
Docket Text:
Transmittal Sheet for Notice of Appeal to USCA re [30] Notice of Appeal, The Clerk s
Office hereby certifies the record and the docket sheet available through ECF to be the
certified list in lieu of the record and/or the certified copy of the docket entries, (dsto,)

4:19-cv-02050-RBH Notice has been electronically mailed to:
4:19-cv-02050-RBH Notice will not be electronically mailed to:
Clara Lewis Brockington
Post Office Box 3232
Florence, SC 29502
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l091130295 [Date= 12/5/2019] [FileNumbei=9388472-0
] [638a469fc9ce9e49e91 ed7c6425e84e 130edcl 99f12da90dl a28el 714510b7d 1 cda
17cb79b2016465ed52178a97bafc42ea9ff0aaf9177a84101 f2486a59d949]]

1 of 1

12/5/2019,7:07 PM

r*“*

1

4:19-cv-02050-RBH

Date Filed 12/05/19

Entry Number 31

Page 1 of 1

APPEAL TRANSMITTAL SHEET (non-death penalty)
Transmittal to 4CCA of notice of
appeal filed: 12/05/19_______

District:

J First NOA in Case

Division:

___ Subsequent NOA-same party

FLORENCE

___Subsequent NOA-new party
___ Subsequent NOA-cross appeal
___Paper ROA

___ Paper Supp.

Vols:_____________________

District Case No.:

SOUTH CAROLINA

4:19-cv-2050-RBH
4CCA No(s). for any prior NOA:

Caption:
Clara Lewis Brockington vs. Salem
United Methodist Church, The United
Methodist Church South Carolina
Conference, et al

4CCA Case Manager:

Other:_____
Exceptional Circumstances: ___Bail ___ Interlocutory ___ Recalcitrant Witness
Confinement-Criminal Case:
___Death row-use DP Transmittal

Other

Fee Status:
___ No fee required (USA appeal)

___ Appeal fees paid in full

___ Fee not paid

___Recalcitrant witness
___In custody
__ On bond
___ On probation

___District court granted & did not revoke CJA status (continues on appeal)

Defendant Address-Criminal Case:

___District court never granted CJA status (must pay fee or apply to 4CCA)

Criminal Cases:

___District court granted CJA & later revoked status (must pay fee or apply to 4CCA)

Civil, Habeas & 2255 Cases:
■J Court granted & did not revoke IFP status (continues on appeal)
___Court granted IFP & later revoked status (must pay fee or apply to 4CCA)
___ Court never granted IFP status (must pay fee or apply to 4CCA)
District Judge:

PLRA Cases:

Hon. R. Bryan Harwell

___Proceeded PLRA in district court, no 3-strike determination (must apply to 4CCA)
___ Proceeded PLRA in district court, determined to be 3-striker (must apply to 4CCA)

Court Reporter (list all):
Sealed Status (check all that apply):
____ Portions of record under seal
____ Entire record under seal
____ Party names under seal
Docket under seal

Coordinator:

Record Status for Pro Se Appeals (check any applicable):
/ Assembled electronic record transmitted

Record Status for Counseled Appeals (check any applicable):
___Assembled electronic record available if requested

___Additional sealed record emailed to 4cca-filing

__Additional sealed record available if requested

__ Paper record or supplement shipped to 4CCA

___Paper record or supplement available if requested

___No in-court hearings held

___No in-court hearings held

___In-court hearings held - all transcript on file

___In-court hearings held - all transcript on file

___ In-court hearings held - all transcript not on file

___In-court hearings held - all transcript not on file

Other:

Deputy Clerk: Debbie Stokes
01/2012

Other:

Phone: 843/676-3820

Date: 12/05/19

The United Methodist Church
South Carolina Conference
4908 Colonial Drive, Suite 121
Columbia, South Carolina 29203
TELEPHONE - (803) 786-9486
FAX-(803) 399-9959
Lollie Haselden

L. Jonathan Holston
RESIDENT BISHOP

EXECUTIVE ASSISTANT

July 16, 2018

Ms. Clara L. Brockington
PO Box 3232
Florence, SC 29502
Dear Ms. Brockington,
Thank you for your letter, dated July 11th, that was received today in my
office. I am forwarding it to Rev. Terry Fleming, Florence District
Superintendent of the United Methodist Church, and I encourage you to
have further communication with him related to this matter.
It is my prayer that you find healing and can continue to support Salem
United Methodist Church and the South Carolina Annual Conference with
your prayers, presence, gifts, service, and witness.
Grace and Peace,

JL-Jonathan Holston
Resident Bishop

LJH/lh

To Whom It May Concern
From: Rev. Daniel K. McCowan
Pastor of Maxwell Baptist Church
Date: November 15, 2018
Re:

Membership

This memo is to confirm that Mrs. Clara Lewis Brockington received "Reaffirmation of her
Baptism" at Maxwell Baptist Church by Rev. McCowan, Pastor. She did not receive the "Right
Hand of Fellowship" nor did she choose to become a member of Maxwell Baptist Church.
Thanks for allowing me to confirm this baptism of Mrs. Brockington. May God bless and keep
each of you!

(P\/^--Rev. Daniel K. McCowan, Pastor
Maxwell Baptist Church

a-

°)

LIST OF A FEW MEMBERS BAPTISED AT OTHER
CHURCHES AND REMAIN FULL MEMBER OF
SALEM UNITED METHODIST CHURCH

1/

Josephine Kelly Lewis

2/

Ruth Harrison

3/

Lenora Wearing

4/

Fred Kelly Sr.

5/

Josephine Smalls Kelly

6/

Leo J. Lewis

7/

Carrie L. Keels

8/

Olin James, President of Usher Board, etc.

9/

Stephanie J. Ashley, Secretary of Conference

10/

Rev. Mack Hines

11/

Rev. Singleton

12/

Sammie Lee Kelly

13/

Patricia Edwards

14/

Clara Greene

15/

Clarissa Edwards

X
Xs
s\

Salem United Methodist Church.
5814 Old River Road
Florence, South Carolina 29505

October 24,2018

Clara L. Brockington
Post Office Box 3232
Florence SC 29505
Ms. Brockington,
Please receive this letter as official notification that your membership to the Salem United
Methodist Church located at 5814 Old River Road, Florence SC 29505 is terminated effective
immediately. This action is taken in accordance with Paragraph 241 of The BOOK OF DISCIPLINE
OF IHE UNITED METHODIST CHURCH - "Withdrawal Without Notice." The basis for this action
comes from information shared with me that you united with Maxwell Baptist Church also in
the city of Florence. After communication with Ms. Janice Howard, Records Clerk at Maxwell
Baptist, she confirmed both via email and US Mail that you were baptized on August 22, 2014
and you also "received the right hand of fellowship which confirmed your membership" with
the Maxwell congregation. Ms. Howard also noted in her letter to me that "your name does
appear on the membership roll" of the Maxwell Baptist Church.
Therefore, you are released from both membership and ALL positions of leadership held in the
congregation of Salem United Methodist Church. It is imperative that you Immediately return
the church key and/or any other church property in your possession to Mr. Johnny Harley, Chair
of The Board of Trustees.
While you are receiving this notification via email, a copy of this correspondence is also being
mailed to you via US Mail. Copies of this correspondence are also being forwarded to persons
who are specified below and will be properly shared with the upcoming Charge Conference.
Regards,

Rev. Brian S. Mungo, Pastor
Salem United Methodist Church

b

■Wifi

f

4

>

■

29(WW nu'jsq jAjefj;oqf?f cpns.cp
yen- 0lisu 2 |A|nuEok bSSfOi

k
<r

/T
t

-;•

\V.

y&Saiq?1

Mpo yi.6 sbnqysq pejOM auq M[f| pe biobeqA spstcq Mifp ?ps nbcowiuK cpat6e? eoumsucesjuaijsq fa Aon /us 02 W9JF C»S!«2 <H fUf? cou.G2boy.qsuc3 ste sjeo psiuB {.oimsiqoq f© be/eou?
Aon st6 iscoiawS 4» ? uofjycatp j ais su/gjf s cobA 044 ?2 cotieabooqGucG tz spo pssu8
Oi XM6 Bo^i-q 04 j[i.n2{G6?‘
ips qjiuqj jseA Duq\ot *uA Qf.p;i qwitqi bu>b.>uAp Aoni bo226*riou *0 w* lopuuA HoqeA* cp9ji
coufJiegspou 042S|eui oup&q jAjGflioqiy cp«*>cp' If P iuibsispns ipsf Aon [Ujuoqj&jGiA teirtui
ip6i.&40ts‘ Aon «L6 i6(eo?c.t, 41002 001*,* ujsujpei^ptb auq yn bot^icu? 04 teoq&tiptb ps»q ju xpe

:
J

sbfcegi ou fue lusujps^pib 1.0;;^ 04/4*6 i/\jsxv,6jj gsbpgx cpiuepI{,(6 fAiSXAHGlt COUS/GKgflOU- JA<2 HOMSkq 9J20 00{6q !U pGl [6461 40 UI6 ffKI| „Aoni. U3UJG 0062
ouq Aon 9j20 nL6C6«A6q xpe qfepx psuq 0| 46[|OAA2ptb /v.pjcp cou4«UvU6q Aoni luouipsi-zpib,. mjcjj
Bsbfiaf spe cooyuusq pofp ..ss gii»sj[ suq f)2 W9« xpsx Aon mslg pgbffssq oo ynKms 55- sow
4>s ci{A 04 b[Oi.yuc6' V44GL cjujuinujcofiou Mjxp iffr puses HO^giq4 u&coiqs oup H tA|9XMSjj
comp? 410m jupjuts-ip.ay zpsisq A^fp ujg xpsx Aon nuixcq mjxp [^sxaagk gsbxrcf cpracp s;?o su
oT Iffi fiwCuiO WEIhodIH CHnSCH “ jVMQiquMq} MPM^f MCijCG^ JJI6 p92j? 40J
scqou
jU2U/6q»Sf6jA* Ipj2 scfjou [2 **fceu ju sccotqwcs MI4P t,»urili9b|i Sstj 04 jjTS gooK Qfc OlScibiw:
[AJ6fuoqi24 cpnicp [OCstGq n 2SN Ciq Bfftet Boyq' yotouce 2C 53B02!«tGiujiuaxeq 6446^^6

I:
5

i
j

bJ6926 teCGjAt {['(2 [6|4G4 92 OiyqS) UOfiyC9fiOU fpSf

1

5

•i

i

■<

J

1

j

UJSUJpGl2p»b 40 4}iO 29)GUI fJO?/fcq

W bloc4>i:84ou'
t|OiGuc« 2C Ad?Oc
bo-if 04Uw& bov 7335

r

*
«>

i

QBS.3 r P’. OCffiUuXOU

A

i
Or - up6i 3^}‘ 5018

i

i

/

tfoieucs' ponxjj caiopus ^a^og

?

?.21< G(C! Kiacl Bosq
2SISLW p,u»);6q
CMnicH

h

4

?

t

i
s.

9
*»K’

-*

t

Cfje

TERRYFLEMING
SUPERINTENDENT

s

iHetfjotiisit Cljurcf)

FLORENCE DISTRICT
SOUTH CAROLINA CONFERENCE
P.O.BOX 408
FLORENCE, SOUTH CAROLINA 29503-0408

Office: (843) 669-5992
Fax: (843) 673-9883
Email: fldist@umcsc.org

July 20, 2018

Ms. Clara Lewis Brockington
P.O.Box 3232
Florence, SC 29502
Dear Ms. Brockington:
I am in receipt of a copy of your July 11,2018 correspondence to Bishop Holston regarding Rev.
Briant Mungo. Thank you for reaching out. From the words you have used, you have indicated
your frustration.
I have spoken with Rev. Mungo about the meeting that was held. I hear your frustration regarding
others being present during the meeting. Rev. Mungo has shared with me that the initial topic was
related to Golden Cross and different understandings of application policy and procedure. I have
asked the conference office to clarify information that will help all of Us.
It is my sincere prayer that you will seek and find an amicable solution to this misunderstanding.
Our faith in Jesus Christ and the vows of membership we have taken to Christ's church call us to
nothing less.
Grace and peace,

Terry Fleming
District Superintendent
aob

Page 1 oti
Print Window

'<rb
Subject:
From:

RE: Request For A Meeting

^__ _____

papookelly@yahoo.com
bsmungo@umcsc.org,vpapookelly@yahoo.com

To:
Cc: mtfleming@umcsc.org
brock_00@yahoo.com; clbrockingtonl994@yahoo.com
Bcc: c_

mmsmsssbate;;:;

------”

"

After s

I look forw

ard to hearing from you at you, earliest convenience.

Mrs. Clara Lewis Brockington
Member of Salem UMC

7/24/2018
(/■»

1

1

/ 1 /«*/.nnorme/7A1 Q

J

• •• p

P. O. Box 3232
Florence, SC 29502
November 1, 2018

Mr. L. Jonathan Holston
Resident Bishop
The United Methodist Church
South Carolina Conference
4908 Colonial Drive, Suite 121
Columbia, South Carolina 29203
Re: Falsified Letter from Rev. Brian S. Mungo, Pastor of Salem United Methodist Church dated
October 24, 2018
Dear Bishop Holston:
Please find attached a falsified letter from Rev. Mungo, where he continues to retaliate against
me for contacting you about him breaking confidentiality with my letter to you, dated July 11,
2018. After receiving a letter from Rev. Fleming dated July 20, 2018, it appears that Rev.
Mungo validates that he was wrong in the way he handled the situation of having Dorethia
Bailey and Maxine McClain in a meeting that I requested confidentiality, and the three of them
violated my confidentiality. However, Rev. Fleming asked that we meet and try to resolve this
matter. I followed the recommendations of Rev. Fleming and requested a meeting on three
different occasions and Rev. Mungo refused to meet with me, even if a meeting was held in the
midst of Rev. Fleming.
Rev. Mungo, Dorethia and Maxine attempted to find violations on me and have been incorrect,
when they requested the letter from Janice Howard at Maxwell Baptist Church. There are
many family members, siblings, friends and members in Salem United Methodist Church that
have chosen to be Baptised in water as well as the Methodist Baptism. I have chosen also to
become one of those members BEFORE Rev. Mungo became the Pastor of Salem United
Methodist Church.
Before contacting the Pastor at Maxwell Baptist Church to request baptism ONLY, I discussed
this matter with numerous United Methodist Pastors that I am constantly affiliated with on a
regular basis. After speaking with pastors involved and getting the approval to be "Baptized
ONLY" and not be given the Right Hand of Fellowship and Not Become a Part of Any
Committees and Not Attend Any Membership Classes at Maxwell Baptist Church, the pastors
agreed that I would remain a member of Salem United Methodist Church. My daughter and I
were baptized on the same day and it appears that there has been a mixed up by Janice
Howard, Records Clerk, with Maxwell Church, as well as Rev. Mungo, Maxine and Dorethia,
who initiated this retaliation. NO PASTORS BEFORE REV. MUNGO STARTED THIS FOOLISHNESS
AND WE ARE WONDERING WHY. IS THIS RETALIATION. DISCRIMINATION. HARASSMENT.ETC?

-L
I have shared this falsified letter with numerous United Methodist Pastors, numerous Baptist
Pastors and other siblings and family members of Salem United Methodist Church, who have
reached out to other Pastors to be baptized at other churches and continues to remain
members of Salem United Methodist Church. These United Methodist Pastors discussed
several ways to be baptized and still remain a member of Salem United Methodist Church and
remain on all committees at Salem United Methodist Church.
This matter has been taken out of contents by Rev. Mungo, Dorethia and Maxine and approved
by Rev. Fleming, according to the way the United Methodist Pastors, Baptist Pastors and myself
have read this. There were witnesses to my conversation with ALL of the pastors. Rev. Mungo
was NOT a witness to the conversation nor the baptism; Janice was NOT a witness to the
conversations nor the baptism; and Rev. McCown is very ill dealing with his illnesses at this time
so it will be inappropriate (due to memory status), unprofessional and rude for him to be
contacted concerning a matter that I have witnesses.
I am requesting that you contact Rev. Fleming, Rev. Mungo, Dorethia and Maxine and request
that their foolishness STOP now to avoid other actions being taken. If Rev. Mungo wants to
take surveys on ALL persons who have been baptized outside of Salem UMC, then he would
have contacted my siblings, other family members and friends of Salem UMC and this has NOT
been done by Rev. Mungo. This could be looked at as.a form of discrimination and retaliation
since he did not complete a TOTAL church member's survey. However, the other pastors
informed me to contact you expeditely and request that Rev. Mungo, Dorethia and Maxine
cease their foolishness NOW. Other pastors involved are witnesses that Rev. McCowan was
Instructed that my baptism did NOT include any membership, attending membership classes
nor becoming a member of any committees at Maxwell Baptist Church.
I am requesting that you contact me as soon as you receive this letter. I can be reached at 6161317. Also, I will be in Columbia, SC next week so I could stop by to discuss this matter more in
depth, so that you may pass on the CORRECT INFORMATION to the South Carolina Charge
Conference. I will continue working for the LORD in all of my capacities at Salem United
Methodist Church. Thanks in advance for your immediate cooperation on intervening on this
very SERIOUS matter, where my health, character, history, background, church affiliations, love
for the LORD, judgment, faithfulness, honesty, etc., have been affected in numerous ways. I
trust your intervention will resolve ALL matters to avoid further actions.
Respectfully Submitted,

?
Uara Lewis Brockington
Member of Salem United-Mefhodist Church
Attachment

